No. 19-357
Supreme Couct of the United States

City oF CHIcaAGo, ILLINOIS,
Petitioner,
v.

ROBBIN L. FULTON, GEORGE PEAKE, AND TIMOTHY SHANNON,

Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES CouRT OF APPEALS
FOR THE SEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE AMER-
ICAN CiviL LIBERTIES UNION, THE AMERICAN CIVIL LIBERTIES UNION OF ILLI-
NOIS, THE CATO INSTITUTE, THE FINES AND FEES JUSTICE CENTER, THE INSTI-
TUTE FOR JUSTICE, THE R STREET INSTITUTE, AND THE RUTHERFORD INSTITUTE
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS, as corrected and refiled, contains
7,987 words, exempting parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Dated: March 18, 2020

 

R STREET INSTITUTE
1212 New York Ave NW Ste 900
Washington DC 20005

(202) 525-5717
cduan@rstreet.org

Counsel for Amici Curiae
No. 19-357
Supreme Court of the United States

City oF CHICAGO, ILLINOIS,

Petitioner,
v.

ROBBIN L. FULTON, GEORGE PEAKE, AND TIMOTHY SHANNON,
Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES CouRT OF APPEALS
FOR THE SEVENTH CIRCUIT

TRANSMITTAL OF CORRECTED BRIEF

A corrected version of the BRIEF OF THE AMERICAN CIVIL LIBERTIES UNION,
THE AMERICAN CIVIL LIBERTIES UNION OF ILLINOIS, THE CATO INSTITUTE, THE
FINES AND FEES JUSTICE CENTER, THE INSTITUTE FOR JUSTICE, THE R STREET
INSTITUTE, AND THE RUTHERFORD INSTITUTE AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS, originally filed March 11, 2020, is being refiled herewith. Pursuant to in-
structions from the Office of the Clerk, this corrected brief removes an appendix describing
the individual amici curiae on the brief, and removes references to said appendix in the
table of contents and on page 1 of the brief.

Dated: March 18, 2020

 

R STREET INSTITUTE

1212 New York Ave NW Ste 900
Washington DC 20005

(202) 525-5717
eduan@rstreet.org

Counsel for Amici Curiae
